<html>
<title> - MINORITY DAY, CONTINUATION OF H.R. 51: ``MAKING D.C. THE 51ST STATE, FROM SEPTEMBER 19, 2019''</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 MINORITY DAY, CONTINUATION OF H.R. 51:
                     ``MAKING D.C. THE 51st STATE,
                       FROM SEPTEMBER 19, 2019''

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           DECEMBER 19, 2019
                               __________

                           Serial No. 116-80
                               __________

      Printed for the use of the Committee on Oversight and Reform


                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                  Available on: http://www.govinfo.gov
                     http://www.oversight.house.gov
                        http://www.docs.house.gov
                        
                        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
39-582 PDF                WASHINGTON : 2020                           
                        
                        


                   COMMITTEE ON OVERSIGHT AND REFORM

              CAROLYN B. MALONEY, New York, Chairmanwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California                Frank Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                Mark Stephenson, Director of Legislation
  Bradley Truding, Legislative Director for Del. Eleanor Holmes Norton
                          Joshua Zucker, Clerk

               Christopher Hixon, Minority Chief of Staff

                      Contact Number: 202-225-5051




                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on December 19, 2019................................   1-2


 
                 MINORITY DAY, CONTINUATION OF H.R. 51:
                     ``MAKING D.C. THE 51ST STATE,
                       FROM SEPTEMBER 19, 2019''

                      Thursday, December 19, 2019

                   House of Representatives
                  Committee on Oversight and Reform
                                           Washington, D.C.
    The committee met, pursuant to notice, at 12:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn B. 
Maloney [chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Raskin, Kelly, 
Tlaib, Haaland, Porter, and Jordan.
    Chairwoman Maloney. The committee will come to order.
    The committee is now reconvening its hearing on H.R. 51, 
the Washington, DC, Admission Act which recessed on September 
19, 2019.
    On that day, Ranking Member Jordan and other Republican 
committee members sent a letter requesting six additional 
witnesses for a subsequent minority day of hearing pursuant to 
House rules. As they wrote in that letter--and I quote--we look 
forward to your scheduling this hearing promptly.
    On November 21, 2019, I became chairwoman of this 
committee. At that time I was unsure whether Ranking Member 
Jordan still wanted the minority day of hearings. However, four 
days later, on November 25, 2019, you sent a letter to me 
insisting that we go forward. So after informing his staff, I 
sent letters on December 12, 2019, conveying invitations to 
each of the six witnesses they sought for today's minority day 
of hearings.
    Obviously, they have declined to testify, and we have no 
witnesses before us today. That is their right, since they are 
not compelled to testify in response to the ranking member's 
request. As a result, we will adjourn today's hearing.
    However, before I do that, I would be willing to recognize 
Ranking Member Jordan, if he has anything he would like to say.
    Mr. Jordan. Thank you, Madam Chair.
    I am disappointed we are here today. The Republicans 
requested a minority day hearing on the D.C. Statehood issue 
and specifically information about Mr. Evans and his conduct. 
But Democrats refused to allow us to examine the serious 
allegations of misconduct levied against D.C. council member 
Jack Evans.
    The committee cannot assess D.C.'s readiness to be a state 
until we fully understand the nature and extent of Council 
Member Evans' misconduct. This should not be a partisan issue.
    Senior members of the Democrat majority have said that the 
documents the committee has received in its investigation, 
quote, paint a disturbing picture of Mr. Evans' ethical 
transgressions.
    Your choice to schedule the minority day hearing now, 
between our markup this morning and the subcommittee hearing 
this afternoon, and on the last day of scheduled business in 
this congressional session, disappoints us. Your decision to 
only minimally consult with Republican staff and to proceed 
with the hearing today over our objection is a bad sign for the 
rights of the minority for the rest of this Congress.
    Because you didn't consult Republicans, your invitation 
letters for the witnesses we requested did not properly explain 
the purpose of their testimony. And so it was no surprise that 
several witnesses replied that they would not attend. I think 
five of the six said they would not attend and one just didn't 
show up.
    Quite simply, these witnesses have direct firsthand 
information about Mr. Evans, about his misconduct, information 
that the committee needs to do its proper oversight.
    At the end of the day, we are most disappointed by the fact 
that the Democrat majority apparently has no desire to join 
Republicans in asking serious questions about WMATA and the 
D.C. Government.
    On December 10, we requested that Democrats schedule 
transcribed interviews with several individuals involved in the 
WMATA investigation into Mr. Evans. We received no response. On 
September 16, we asked the Democrats to invite Evans to testify 
at the hearing we had in September regarding H.R. 51. That 
request was refused as well.
    Instead, Democrats asked the WMATA Inspector General to 
examine the matter. Unfortunately, the inspector general's 
investigation should not be a substitute for congressional 
oversight, especially when the issue is squarely within our 
jurisdiction, as WMATA and D.C. are.
    In fact, if Democrats would have consulted with the 
Inspector General prior to scheduling this hearing, you would 
know that he believes public testimony at this time could harm 
his investigation. But you didn't consult with him, and you 
scheduled the minority day hearing for today. It would impede 
the investigation the Democrats asked him to do.
    The committee cannot mark up H.R. 51 until the committee 
seriously examines D.C. Council Member Evans' misconduct. We 
owe the citizens of D.C. that much, and we owe that to our 
constituents from Ohio, Wisconsin, Tennessee, and Texas, who 
currently subsidize some municipal operations of the district.
    This is what we should have been focused on today. Instead, 
the Democrats just want to play games with the minority rights, 
and unfortunately, we are in the situation we are.
    I yield back.
    Chairwoman Maloney. I thank the gentleman for his remarks, 
and this hearing is adjourned.
    [Whereupon, at 12:15 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
